June 12, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Pos-T-Vac Medical Did Not Meet Medicare Documentation Requirements for
                Over Half of Sampled Claims for Male Vacuum Erection Systems
                (A-07-11-05016)


Attached, for your information, is an advance copy of our final report on our review of Medicare
claims submitted by the durable medical equipment supplier Pos-T-Vac Medical. We will issue
this report to Pos-T-Vac Medical within 5 business days.

If you have any questions or comments about this report, please do not hesitate to contact me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-05016.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
June 14, 2012                                                              K ANSAS C ITY , MO 64106

Report Number: A-07-11-05016

Mr. Ed Stewart
Owner
Pos-T-Vac Medical
1701 North 14th Avenue
Dodge City, KS 67801

Dear Mr. Stewart:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Pos-T-Vac Medical Did Not Meet Medicare Documentation
Requirements for Over Half of Sampled Claims for Male Vacuum Erection Systems. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Scott Englund, Audit Manager, at (573) 893-8338, extension 27, or
through email at Scott.Englund@oig.hhs.gov. Please refer to report number A-07-11-05016 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Ed Stewart


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




POS-T-VAC MEDICAL DID NOT MEET
   MEDICARE DOCUMENTATION
REQUIREMENTS FOR OVER HALF OF
   SAMPLED CLAIMS FOR MALE
   VACUUM ERECTION SYSTEMS




                        Daniel R. Levinson
                         Inspector General

                            June 2012
                          A-07-11-05016
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), (s)(8), and (s)(9), and 1861(n) of the Social Security
Act, Medicare Part B provides for the coverage of durable medical equipment (DME),
prosthetics, orthotics, and supplies (DMEPOS). The Centers for Medicare & Medicaid Services
(CMS) contracts with four DME Medicare administrative contractors to process and pay
Medicare Part B claims.

Federal guidelines define DMEPOS as equipment that can withstand repeated use, is primarily
and customarily used to serve a medical purpose, is generally not useful to a person in the
absence of illness or injury, and is appropriate for use in a patient’s home. The non-surgical
systems known as male vacuum erection systems (VES), used in the treatment of erectile
dysfunction, are DME and as such may be claimed and paid under Medicare.

To be paid for a Medicare DME claim, the supplier must maintain (1) proof-of-delivery
documents, (2) documentation of the patient’s medical condition to substantiate the necessity for
the items ordered, and (3) a signed, detailed written physician’s order.

Pos-T-Vac Medical (Pos-T-Vac), based in Dodge City, Kansas, manufactures and supplies VES
for the treatment of erectile dysfunction.

OBJECTIVE

Our objective was to determine whether Pos-T-Vac’s paid claims for VES were supported by the
required documentation.

SUMMARY OF FINDINGS

Pos-T-Vac’s paid claims for VES were not always supported by the required documentation.
For the 100 DME claims that we sampled (and Pos-T-Vac submitted for payment), our review
showed that 49 claims were supported in accordance with Medicare DME documentation
requirements. However, the remaining 51 claims totaling $18,007 did not comply with Medicare
DME documentation requirements. Specifically, we identified the following deficiencies. (Two
claims were missing more than one piece of required documentation.)

   •   For 50 claims, Pos-T-Vac did not maintain proof of delivery in its files.

   •   For two claims, Pos-T-Vac did not maintain sufficient documentation of the patients’
       medical condition to substantiate the necessity for the items ordered.

   •   For one claim, the physician’s written order in Pos-T-Vac’s files lacked the signature of
       the treating physician.




                                                 i
Based on the results of our sample, we estimated that unsupported Pos-T-Vac paid claims for
VES resulted in overpayments totaling $4,217,800 during the period January 1, 2008, through
December 31, 2009. Pos-T-Vac submitted unsupported claims because it lacked adequate
internal controls to ensure that it collected and maintained the required documentation.

RECOMMENDATIONS

We recommend that Pos-T-Vac:

   •   refund $4,217,800 to the Federal Government for unallowable DME claims and

   •   develop and implement policies and procedures to help ensure that it collects and
       maintains the required documentation.

AUDITEE COMMENTS

In written comments on our draft report, Pos-T-Vac did not concur with most of our findings.
Pos-T-Vac concurred with our finding on the two claims for which Pos-T-Vac did not maintain
sufficient documentation of the patients’ medical condition to substantiate the necessity for the
items ordered. Pos-T-Vac also concurred with our finding on the claim in which the physician’s
written order lacked the treating physician’s signature.

However, Pos-T-Vac did not concur with our first finding on proof of delivery and with the
questioned costs associated with that finding. Specifically, Pos-T-Vac disagreed with our
finding on the 48 claims for which Pos-T-Vac did not maintain proof of delivery as required by
42 CFR § 424.57(c)(12) and the provisions of CMS’s Medicare Program Integrity Manual.

Pos-T-Vac’s comments are in Appendix C. We excluded 76 pages of attachments to those
comments because they contain personally identifiable information. We are providing the
attachments in their entirety to CMS.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Pos-T-Vac’s comments, we maintain that our findings and recommendations are
valid. Federal requirements mandate that Medicare DME suppliers maintain proof of delivery.
The information that Pos-T-Vac provided to supplement its comments did not represent
sufficient and/or appropriate evidence for supporting a conclusion that the items had actually
been delivered to beneficiaries.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Coverage of Durable Medical Equipment ...........................................1
              Medicare Durable Medical Equipment Documentation Requirements ...............1
              Pos-T-Vac Medical. .............................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          INSUFFICIENT MEDICARE DURABLE MEDICAL
            EQUIPMENT DOCUMENTATION .........................................................................4
               Federal Requirements and Guidelines .................................................................4
               Insufficient Documentation .................................................................................5

          EFFECT OF UNALLOWABLE CLAIMS .................................................................... 6

          RECOMMENDATIONS .................................................................................................6

          AUDITEE COMMENTS.................................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: AUDITEE COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Medicare Coverage of Durable Medical Equipment

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, people with disabilities, and people with end-stage
renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program.

Pursuant to sections 1832(a)(1), 1861(s)(6), (s)(8), and (s)(9), and 1861(n) of the Act, Medicare
Part B provides for the coverage of durable medical equipment (DME), prosthetics, orthotics,
and supplies (DMEPOS). Section 1862(a)(1)(A) of the Act requires that, to be paid by
Medicare, a service or an item be reasonable and necessary for the diagnosis or treatment of
illness or injury or to improve the functioning of a malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. Further, CMS contracts
with Zone Program Integrity Contractors (ZPIC) to fulfill program integrity functions for the
Medicare program. 1

National coverage determinations describe the circumstances for Medicare coverage nationwide
for specific medical service procedures or devices, including DMEPOS, and generally outline the
conditions under which a service or device is considered covered. The Medicare National
Coverage Determinations Manual, Pub. No. 100-03, chapter 1, part 4, section 280.1, defines
DME as equipment that can withstand repeated use, is primarily and customarily used to serve a
medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home. Medicare contractors develop local coverage
determinations (LCD) for some covered DMEPOS items. The non-surgical systems known as
male vacuum erection systems (VES), used in the treatment of erectile dysfunction, are DME
and as such may be claimed and paid under Medicare.

Medicare Durable Medical Equipment Documentation Requirements

Although there are no LCDs for VES, Medicare DME documentation requirements apply. To be
paid for a Medicare DME claim, including VES, the supplier must maintain (1) proof-of-delivery
documents, (2) documentation from the patient’s medical records to substantiate the necessity for
the items ordered, and (3) a signed, detailed written physician’s order.


1
  Section 202 of the Health Insurance Portability and Accountability Act of 1996 added section 1893 to the Act,
establishing the Medicare Integrity Program and authorizing CMS to contract with entities to fulfill program
integrity functions for the Medicare program. Each ZPIC is assigned to one or more of seven geographical zones
nationwide. The majority of the claims we reviewed for this audit were made on behalf of beneficiaries in Zones 2
and 5.

                                                        1
Pos-T-Vac Medical

Pos-T-Vac Medical (Pos-T-Vac), based in Dodge City, Kansas, manufactures and supplies VES
for the treatment of erectile dysfunction.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Pos-T-Vac’s paid claims for VES were supported by the
required documentation.

Scope

We reviewed a total of $10,160,035 in DME claims that Pos-T-Vac submitted for VES and that
the DME MAC paid during the period January 1, 2008, through December 31, 2009.

Our review focused on whether Pos-T-Vac met Medicare documentation requirements for VES.
We did not conduct a medical review to determine whether the services were medically
necessary.

We did not review the overall internal control structure of Pos-T-Vac. We limited our review of
internal controls to those related to our audit objective.

We conducted our fieldwork in March 2011 at Pos-T-Vac’s office in Dodge City, Kansas.

Methodology

To accomplish our objective, we:

      •   reviewed applicable Federal laws, regulations, and DME MAC guidance;

      •   reviewed Pos-T-Vac’s policies and procedures for submitting claims for VES;

      •   interviewed staff at Pos-T-Vac to gain an understanding of its process for billing DME
          claims for VES;

      •   discussed with staff at AdvanceMed 2 the allowability of claims that lacked proof-of-
          delivery documentation;

      •   obtained electronic paid claims data for Pos-T-Vac during the period January 1, 2008,
          through December 31, 2009;



2
    AdvanceMed is the ZPIC for Medicare DMEPOS in Zones 2 and 5.


                                                     2
      •    selected a simple random sample of 100 paid claims from the 28,088 paid claims during
           the period January 1, 2008, through December 31, 2009;

      •    obtained and reviewed the supporting documentation for each claim that we sampled to
           determine the allowability of the claim; and

      •    discussed the results of our review with Pos-T-Vac officials on April 21, 2011.

See Appendix A for our sample design and methodology and Appendix B for our sample results
and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Pos-T-Vac’s paid claims for VES were not always supported by the required documentation.
For the 100 DME claims that we sampled (and Pos-T-Vac submitted for payment), our review
showed that 49 claims were supported in accordance with Medicare DME documentation
requirements. However, the remaining 51 claims totaling $18,007 did not comply with Medicare
DME documentation requirements. Specifically, we identified the following deficiencies.

      •    For 50 claims, Pos-T-Vac did not maintain proof of delivery in its files.

      •    For two claims, Pos-T-Vac did not maintain sufficient documentation of the patients’
           medical condition to substantiate the necessity for the items ordered.

      •    For one claim, the physician’s written order in Pos-T-Vac’s files lacked the signature of
           the treating physician. 3

Based on the results of our sample, we estimated that unsupported Pos-T-Vac paid claims for
VES resulted in overpayments totaling $4,217,800 during the period January 1, 2008, through
December 31, 2009. Pos-T-Vac submitted unsupported claims because it lacked adequate
internal controls to ensure that it collected and maintained the required documentation.




3
    Two claims were missing more than one piece of required documentation.


                                                         3
INSUFFICIENT MEDICARE DURABLE MEDICAL
EQUIPMENT DOCUMENTATION

Federal Requirements and Guidelines

Proof of Delivery

Section 1833(e) of the Act provides that no payment shall be made to a provider of services
under Part B unless there is furnished such information as may be necessary to determine the
amount due. Pursuant to 42 CFR § 424.57(c)(12), a supplier “[m]ust be responsible for the
delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”

Chapter 4, section 4.26, of CMS’s Medicare Program Integrity Manual, Pub. No. 100-08 (the
manual), provides that:

       Suppliers are required to maintain proof of delivery documentation in their files.
       Documentation must be maintained in the supplier’s files for 7 years.

       Proof of delivery is required in order to verify that the beneficiary received the
       DMEPOS …. Proof of delivery must be made available to the DME MAC upon
       request. For any services, which do not have proof of delivery from the supplier,
       such claimed items and services will be denied and overpayments recovered.

Further, chapter 4, section 4.26.1, of the manual provides examples of proof of delivery if a
supplier delivers directly to the beneficiary (or designee) or uses a shipping service or mail
order. The manual states: “An example of proof of delivery to a beneficiary [or the designee] is
having a signed delivery slip …. If the supplier utilizes a shipping service or mail order, an
example of proof of delivery would include the service’s tracking slip ….”

Medical Condition

Chapter 5, section 5.8, of the manual states: “The supplier should … obtain as much
documentation from the patient’s medical record as they determine they need to assure
themselves that coverage criteria for an item have been met.”

Chapter 5, section 5.7, of the manual provides additional guidelines regarding requirements for
documentation. Section 5.7 of the manual states:

       For any DMEPOS item to be covered by Medicare, the patient’s medical record
       must contain sufficient documentation of the patient’s medical condition to
       substantiate the necessity for the type and quantity of items ordered and for the
       frequency of use or replacement (if applicable) …. [T]he DME MACs … or
       ZPICs may request this information in selected cases. If the DME [MACs] … or
       ZPICs do not receive the information when requested or if the information in the
       patient’s medical record does not adequately support the medical necessity for the
       item, then on assigned claims the supplier is liable for the dollar amount involved

                                                4
         unless a properly executed advance beneficiary notice (ABN) of possible denial
         has been obtained.

Physician’s Order

Chapter 5, section 5.2.1, of the manual requires that the DME supplier obtain an order from the
treating physician before dispensing DMEPOS to a beneficiary. Chapter 5, section 5.2.3, of the
manual provides that a “supplier must have a detailed written order before submitting a claim ….
If the claim is for an item for which an order is required by statute …, the claim will be denied as
not meeting the benefit category…. For all other items … if the supplier does not have an order
that has been both signed and dated by the treating physician before billing the Medicare
program, the item will be denied as not reasonable and necessary.”

Insufficient Documentation

For 50 of the 100 claims that we sampled, Pos-T-Vac did not maintain proof of delivery as
required by 42 CFR § 424.57(c)(12) and the manual provisions. As a result, Pos-T-Vac was
unable to provide proof of delivery upon request. According to Federal requirements, if a
supplier does not have proof of delivery for an item, the item must be denied and overpayments
recovered.

After we made Pos-T-Vac aware of this finding, Pos-T-Vac sent to those 50 beneficiaries
statements that it referred to as “affidavits.” Each statement contained language affirming
receipt of the item for which Pos-T-Vac had received Medicare payment. Twenty-two of the
fifty beneficiaries returned the statements, each of which contained an unwitnessed beneficiary
signature. 4 However, the 22 statements do not warrant a high degree of confidence as proof of
delivery because they contain: (1) handwritten dates of delivery that were almost 2 years before
the date the beneficiaries signed the statements, and (2) instructions implying that the
beneficiaries had to sign them. Thus, the signed statements are not sufficient to verify that the
beneficiaries received the items.

Because Pos-T-Vac did not maintain proof of delivery as required by 42 CFR § 424.57(c)(12)
and the manual provisions and because the signed statements were not sufficient to verify that
the beneficiary actually received the items, the items must be denied and overpayments must be
recovered. Officials of the ZPIC with whom we consulted agreed that all 50 claims not
supported by proof of delivery should be denied for lack of proof-of-delivery documentation,
including the 22 claims whose delivery was supported by signed statements obtained almost
2 years after the claimed items had been delivered.

For 2 of the 100 claims that we sampled, Pos-T-Vac did not maintain sufficient documentation of
the patients’ medical condition to substantiate the necessity for the items ordered. For these two
claims, the treating physicians’ written orders were the only documentation that Pos-T-Vac

4
 None of the signed statements is an affidavit. An affidavit is a formal sworn statement of fact, signed by its author,
and witnessed by a taker of oaths, such as a notary public, who swears to the authenticity of the affiant’s signature.



                                                          5
maintained. After we made Pos-T-Vac aware of this finding, Pos-T-Vac requested medical
records from the treating physicians’ offices that would support the medical necessity of these
two claims. However, no medical records were provided. Consequently, the supplier
(Pos-T-Vac) is liable for the dollar amounts of the two claims. Additionally, for 1 of the 100
claims that we sampled, Pos-T-Vac submitted a claim with a physician’s written order that
lacked the treating physician’s signature. Therefore, according to the manual provisions, the
item must be denied as not reasonable and necessary.

Pos-T-Vac submitted unsupported claims because it lacked adequate internal controls to ensure
that it collected and maintained the required documentation. Specifically, Pos-T-Vac did not
have a policy in place that defined proof of delivery and other Medicare DME documentation
requirements, nor did it have adequate procedures in place to ensure that it met these
documentation requirements.

EFFECT OF UNALLOWABLE CLAIMS

Of the 100 claims in our sample, 51 did not comply with the Medicare DME documentation
requirements. Based on the results of our sample, we estimated that unsupported Pos-T-Vac paid
claims for VES resulted in overpayments totaling $4,217,800.

RECOMMENDATIONS

We recommend that Pos-T-Vac:

   •   refund $4,217,800 to the Federal Government for unallowable DME claims and

   •   develop and implement policies and procedures to help ensure that it collects and
       maintains the required documentation.

AUDITEE COMMENTS

In written comments on our draft report, Pos-T-Vac did not concur with most of our findings.
Pos-T-Vac concurred with our finding on the two claims for which Pos-T-Vac did not maintain
sufficient documentation of the patients’ medical condition to substantiate the necessity for the
items ordered. Pos-T-Vac also concurred with our finding on the claim in which the physician’s
written order lacked the treating physician’s signature. Pos-T-Vac stated that it had reviewed
these three claims in question and implemented procedures to ensure that these types of errors
would not occur in the future.

However, Pos-T-Vac did not concur with our first finding on proof of delivery and with the
questioned costs associated with that finding. Specifically, Pos-T-Vac disagreed with our
finding on the 48 claims for which Pos-T-Vac did not maintain proof of delivery as required by
42 CFR § 424.57(c)(12) and the manual provisions. Pos-T-Vac stated:

       Pos-T-Vac Medical did, in fact, deliver these items to the beneficiaries via United
       Parcel Service (UPS). Specifically, my client [i.e., Pos-T-Vac] was enrolled in

                                                6
        the Quantam View Tracking Program with UPS which allows them to obtain
        tracking confirmation electronically. Unfortunately, they were unaware that the
        confirmations of delivery forms are only available for 18 months. As a result,
        they are unable to provide these. However, the system does account for all
        deliveries and we have provided electronic copies of two reports generated by
        UPS …. Based on this information, it can be concluded that the equipment was
        delivered to the beneficiaries. 5

Pos-T-Vac also cited a portion of the DME MAC Supplier Manual for each jurisdiction
describing examples of acceptable proof of delivery documentation. Pos-T-Vac stated that the
combination of a copy of its invoice and the corresponding delivery confirmation information
provided by UPS constituted sufficient documentation to show that the equipment was delivered
and met the Federal requirements for proof of delivery. Pos-T-Vac also described corrective
actions, including (1) creating a new position for file verification to ensure that claims being
submitted would contain the appropriate documentation and (2) implementing internal policies to
ensure accuracy of documentation. Pos-T-Vac added that it planned to add the UPS tracking
number to its invoices for the 48 claims and has implemented this change for all new claims
going forward. Pos-T-Vac stated that this change would allow the invoice and delivery
confirmation to be cross-referenced.

Pos-T-Vac’s comments are in Appendix C. We excluded 76 pages of attachments to those
comments because they contain personally identifiable information. We are providing the
attachments in their entirety to CMS.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Pos-T-Vac’s comments, we maintain that our findings and recommendations are
valid. Federal requirements mandate that Medicare DME suppliers maintain proof of delivery in
their files and provide proof of delivery upon request. Pos-T-Vac utilizes UPS to deliver items
to the beneficiaries. UPS provides a delivery confirmation to Pos-T-Vac for each shipment as
proof of delivery, usually in the form of an email, containing the date delivered and the signature
of the receiver. However, during our audit, Pos-T-Vac could not provide proof of delivery for 48
of the 100 sample items as required. Pos-T-Vac did not routinely maintain proof of delivery
documentation in its files for all equipment it provided to Medicare beneficiaries, and UPS
routinely purges its delivery confirmation information in its system after 18 months.
Consequently, to supplement its comments on our draft report, Pos-T-Vac provided additional
electronic reports as delivery confirmation information. Pos-T-Vac asserted that the combination
of a copy of its invoice and the corresponding delivery confirmation information constituted
proof of delivery in accordance with Federal requirements. However, upon reviewing these
additional electronic reports, we could not conclude that they constituted sufficient and/or
appropriate evidence because we could not validate the data, which were incomplete and
contained irregularities.



5
 Pos-T-Vac retained the services of a consulting firm, The van Halem Group, LLC, which prepared the auditee
comments. For this reason, the written comments occasionally refer to Pos-T-Vac as “my client.”

                                                       7
Generally accepted government auditing standards (GAGAS) require that auditors obtain
sufficient, appropriate evidence to provide a reasonable basis for their findings and conclusions.
These standards state that the concept of sufficient, appropriate evidence is integral to an audit.
We reviewed the information that Pos-T-Vac provided as part of its written comments on our
draft report to determine whether it was sufficient and appropriate in the context of our audit
findings and conclusions.

GAGAS standard 6.60 states:

       Appropriateness is the measure of the quality of evidence that encompasses the
       relevance, validity, and reliability of evidence used for addressing the audit
       objectives and supporting findings and conclusions.

               a. Relevance refers to the extent to which evidence has a logical
                  relationship with, and importance to, the issue being addressed.

               b. Validity refers to the extent to which evidence is a meaningful or
                  reasonable basis for measuring what is being evaluated. In other
                  words, validity refers to the extent to which evidence represents what
                  it is purported to represent.

               c. Reliability refers to the consistency of results when information is
                  measured or tested and includes the concepts of being verifiable or
                  supported.

GAGAS standard 6.65 states: “When auditors use information provided by officials of the
audited entity as part of their evidence, they should determine what the officials of the audited
entity or other auditors did to obtain assurance over the reliability of the information.”

Additionally, GAGAS standard 6.66 states: “Auditors should assess the sufficiency and
appropriateness of computer-processed information regardless of whether this information is
provided to auditors or auditors independently extract it …. The assessment of the sufficiency
and appropriateness of computer-processed information includes considerations regarding the
completeness and accuracy of the data for the intended purposes.”

Finally, GAGAS standard 6.71 states:

       When assessing the sufficiency and appropriateness of evidence, auditors should
       evaluate the expected significance of evidence to the audit objectives, findings,
       and conclusions, available corroborating evidence, and the level of audit risk.
       The steps to assess evidence may depend on the nature of the evidence, how the
       evidence is used in the audit or report, and the audit objectives.

               a. Evidence is sufficient and appropriate when it provides a reasonable
                  basis for supporting the findings or conclusions within the context of
                  the audit objectives.

                                                 8
                 b.   Evidence is not sufficient or not appropriate when (1) using the
                      evidence carries an unacceptably high risk that it could lead the auditor
                      to reach an incorrect or improper conclusion, (2) the evidence has
                      significant limitations, given the audit objectives and intended use of
                      the evidence, or (3) the evidence does not provide an adequate basis
                      for addressing the audit objectives or supporting the findings and
                      conclusions. Auditors should not use such evidence as support for
                      findings and conclusions.

To substantiate that delivery had occurred for the items in question, Pos-T-Vac provided
electronic reports that it referred to as “corresponding delivery confirmation information.”
According to Pos-T-Vac, these reports were provided by UPS. These electronic reports included
emails and two Microsoft Excel spreadsheets. The UPS emails, sent by the senior account
manager in the UPS sales department, stated that the data came from the UPS data warehouse
and had been verified from shipping and billing manifests sent from the Pos-T-Vac UPS
Worldship shipping system. 6 The UPS official also said that the “stop complete” column of one
of the spreadsheets provided by UPS had the dates of delivery of the items in question. 7

Although Pos-T-Vac said that it had provided us with proof of delivery documentation for the 48
questioned claims, we determined that the data were incomplete because the spreadsheets did not
provide any information for 5 of the 48 claims. Moreover, the data that were provided in the
spreadsheets exhibited irregularities that caused us to question the validity and reliability of the
information that they contained. Specifically, we found:

    1. One of the two spreadsheets that was said to have been prepared by UPS appeared to
       have been prepared by the Pos-T-Vac consultant. This was indicated by the “property”
       tab in Microsoft Excel.

    2. The file names of the two spreadsheets that Pos-T-Vac said UPS had prepared had been
       changed. Specifically, we noted that the file names of the spreadsheets in the email string
       from UPS and forwarded to Pos-T-Vac were different than the file names of the
       spreadsheets Pos-T-Vac forwarded to us. Therefore, we know that the file names were
       modified. We do not know whether the data within the spreadsheets were also modified.

    3. For 14 of the items, there were 2 or more dates in the “stop complete” column, which
       indicated that on more than one occasion, a driver either attempted delivery or made
       delivery of a particular item. Because the source documentation is not available for
       testing those dates, we do not know whether the dates in these 14 instances represent


6
  The information provided by Pos-T-Vac did not include an explanation of how the data were entered into the Excel
spreadsheet (i.e., entered manually into the spreadsheet by the UPS official or electronically transferred from the
data warehouse into the Excel spreadsheet). There would be substantially more risk that the data were inaccurate if
it were manually entered.
7
  In its comments, Pos-T-Vac asserted that the data also included information identifying the individual who signed
for each package. However, we concluded that the data did not include that information.

                                                         9
       dates of attempted delivery or of actual delivery. Ultimately, the information provided by
       Pos-T-Vac did not differentiate between an attempted delivery and a completed delivery.

   4. The information provided by Pos-T-Vac appeared to show that 2 of the 48 items were
      delivered to Pos-T-Vac’s address. Such entries would indicate that the two items were
      not accepted by the beneficiaries and had been returned to Pos-T-Vac. If this were the
      case, the claims should have been adjusted. We reviewed the associated claims in the
      Medicare claims processing system, but found that there had been no adjustments to
      reflect these apparent returns. Without the original delivery confirmation documentation,
      we cannot determine whether or not these items were delivered to the beneficiaries or
      returned to Pos-T-Vac.

In light of these irregularities and the lack of original source delivery documentation against
which to validate the data, we maintain, in accordance with GAGAS, that the electronic reports
provided as part of Pos-T-Vac’s comments did not represent sufficient and/or appropriate
evidence for supporting a conclusion that the items had actually been delivered to beneficiaries.




                                                10
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicare durable medical equipment (DME) claims that were
submitted by Pos-T-Vac Medical for male vacuum erection systems and paid during the period
January 1, 2008, through December 31, 2009.

SAMPLING FRAME

The sampling frame contained 28,088 paid claims totaling $10,160,035.

SAMPLE UNIT

The sampling unit is a paid Pos-T-Vac Medical DME claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 units (paid claims).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sampling frame. After generating 100 random numbers, we
selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the amount of overpayments.
         APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                               Sample Results


Frame     Value of       Sample          Value of     Number of      Value of
 Size      Frame          Size           Sample       Unallowable   Unallowable
                                                       Services      Services

28,088   $10,160,035       100           $35,986             51       $18,007



                 Estimated Value of Unallowable Services
         (Limits Calculated for a 90-Percent Confidence Interval)


                Point Estimate                  $5,057,919


                 Lower Limit                    $4,217,800


                 Upper Limit                    $5,898,037
                                                                                                                         Page 1 0[2


                                           APPENDIX C: AUDITEE COMMENTS



       • ••
      ••  • The
            van Halem
          •         • Group,LLC
The van Halem Group, LLC
934 Glenwood Ave SE
Suite 200
Atlanta , GA 30316
www.vanHalemGroup.com



 February 7, 2012



 Mr. Scott Englund
Audit Manager
Office of Audit Services, Region VII
601 East lih Street, Room 0429
Kansas City, MO 64106

Re: 	          Report Number: A~07-11 - 05016
               Pos-T-Vas Medical ["Pos-T-Vac"]

Dear Mr. Englund:

This letter is in response to the above-referenced report dated January 10, 2012 sent to my client, Pas-T-Vac [see Exhibit
1]. The van Halem Group is a Medicare consulting firm that has been retained by Pos-T-Vac to assure compliance with
federal laws, regulations, and policies associated with their Medicare business. As a result of this draft report, we have
reviewed the related files and would like to provide the following response on behalf of our client.

Out of 100 claims reviewed, your office found that SO claims did not include appropriate proof of delivery, 2 claims did not
maintain sufficient documentation of t he patient's medical condition to substantiate the necessit y of the items ordered,
and 1 claim did not have a physician signature on the order. We were provided the specific claims data and present the
following response.

In the instance in which the claim was denied because the order was missing a signature l and the two instances in which
                                                         2
the claims were denied for no clinical documentation , we have reviewed the files and concur with these findings. The
missing signature was an error on the part of my client. Regarding the documentation, it is important to note that while
suppliers must be able to provide documentation which supports the items they bill are reasonable and necessary, they are
not required to maintain this documentation in their fi les. It is only upon request that it must be provided. In these
instances, Pos-T- Vae was unable to obtain the documentation from the ordering physician . Pos-T-Vac has implemented
procedures to assure that these types of errors do not occur in the future . We will continue to communicate with the
ordering physicians to educate them on the documentation requirements and obtain appropriate documentation on the
front end as much as possible. We will continue conducting quality assurance reviews as part of our accreditation
standards to identify and correct errors such as the missing signature. While we continue to strive for perfection, we think
it's important to note that these errors account for only 3% of the sample population.

The remaining 48 claims [see attached list] were denied solely for lacking proof of delivery and we respectfully do not
concur with these findings. Pos-T-Vac Medical did, in fact, deliver these items to the beneficiaries via United Parcel Service
(UPS). Specifically, my client was enrolled in the Quantam View Tracking Program with UPS which allows them to obtain
tracking confirmation electronically. Unfortunately, they were unaware that the confirmations of delivery forms are only


, Office of Inspector General Note - The deleted text has been
2 redacted because it is personally identifiable information.



HC ~ COMPLY
»>l   A Division oIl!!. yon Ho!..m Group, tiC
                                                                                                                         Page 2 0[2




available for 18 months. As a result, they are unable to provide these. However, the system does account for all deliveries
and we have provided electronic copies of two reports generated by UPS [see attached disk]. The first file] is a spreadsheet
which includes the tracki ng number, name of the individual it was sent to, the address it was delivered to, by whom the
packaged was signed for, and other data provided by UPS. For authenticity purposes, all data provided has been included in
                                    4
t he spreadsheet. The second file is a searchable spreadsheet with the corresponding tracking numbers and date and time
of delivery (per UPS, t his is the "Stop Complete Time" column on the spreadsheet). As part of our response to the draft
report, we are also providing additional clarification from UPS confirming that the information is all that can be provided at
this time but the data is accu rate [see Exhibit 21. Based on this information, it ca n be concluded that the equipment was
delivered t o the beneficiaries. Additionally, in these 48 instances, we recommended that Pos-T-Vac add the UPS Tracking
number to t heir invoice and implement th is change for all new claims moving forward. This was implemented to assure that
the invoice and delivery confirmation can be cross-referenced and is cu rrently the procedure in place.

According to the DME MAC Supplier Manual for each jurisdictionS, th e following proof of delivery documentation is
required:

         If you utilize a shipping service or mail order, an example of proof of delivery would include the service's
         tracking slip and your own shipping invoice. If possible, your records should also include the delivery
         service's package identification number for the package sent to the beneficiary. The shipping service's
         tracking slip should reference each individual package, the delivery address, the corresponding package
         identification number given by the shipping service, and if possible, the date delivered. If you ut ilize a
         shipping service or mail order, you must use the shipping date as the date of service on the claim .

In reviewing the files, we determined in each of the 48 instances that my client did provide a copy of their own invoice [see
Exhibit 3) documenting the equipment that was provided. The corresponding delivery confirmation information provided
by UPS does reference suggested information from the paragraph above. Therefore, we feel we have sufficient
documentation to show that the equipment was delivered and meets the Medicare guidelines·highlighted above.

In closing, Pos-T-Vas is committed to being in compliance with Medicare laws, regulations, and policies and continues to
strive to provide a quality covered product to Medicare beneficiaries. As additional information, we have provid ed a
summary of corrective actions, including a new position for file verification, which has been implemented to assure claims
being submitted contain the appropriate documentation as well as internal policies in place to assure accuracy [see Exhibit
41. In question here is not if these services were delivered, but the forma t of the proof of delivery. We have provided proof
that the packages were delivered which includes the elements requested by Medicare and has been confirmed by the third­
party delivery service. As a result, we feel that an extrapolated overpayment of $4,217,800.00 is not reasonable in this
instance. We respectfully ask that this information be considered when issuing your final report.




S;:11:, ~t(L
w
::L.
President
          van Halem, CFE, AHFI

The van Halem Group, llC

Cc: Ed Stewart, Pos-T-Vac Medical




3 File "UPS Trackinc-Pos T Vac_02 06 2012" 

4 File " UPS Delivery Conf Dates_Pas T Vac_02 06 2012" 

5 Jurisdiction A DME MAC Supplier Manual, Chapter 10; Jurisdiction B DME MAC Supplier Manual, Chapter 8; Jurisction C 

DME MAC Supplier Manual, Chapter 3; and Jurisdiction DOME MAC Supplier Manual, Chapter 3 

